1

I

t

APPENDIX

i

i

la

APPENDIX A — OPINION OF THE UNITED STATES
COURT OF APPEALS, FIFTH CIRCUIT,
DATED FEBRUARY 10, 2021
UNITED STATES COURT OF APPEALS, FIFTH CIRCUIT
2021 WL 519411
No. 20-50445.
Feb. 10, 2021.
Guangcun Huang, Plaintiff-Appellant,
versus
Tim Hui-Ming Huang; Chun-Liang Chen; Chun-Lin Lin; Kohzoh Mitsuya; Deanna
Hester; John Does; Jane Does; University of Texas Health Science Center at San
Antonio; Jennifer S. Potter; William L. Henrich, President, UTHSCSA; Other
UTHSCSA Employees, Defendants-Appellees.

Appeal from the United States District Court for the Western District of Texas
USDCNo. 5:19-CV-763
Before CLEMENT, HlGGINSON, and ENGELHARDT, Circuit Judges.

Per Curiam:*
Guangcun Huang sued his employer, the University of Texas Health Science
Center at San Antonio (UTHSCSA), and employees of UTHSCSA in Texas state court,
alleging various tort claims and violations of the Texas Constitution, First
Amendment, and Fourteenth Amendment. After the case was removed to federal
district court, the district court granted Defendants’ motion to dismiss for lack of
jurisdiction and for failure to state a claim. Guangcun Huang appeals. We affirm.
* Pursuant to 5TH CIRCUIT RULE 47.5, the court has determined that this opinion should not be
published and is not precedent except under the limited circumstances set forth in 5TH CIRCUIT RULE
47.5.4.

2a
Appendix A
I.
Appellant is employed as a postdoctoral fellow at UTHSCSA. He alleges that
his former supervisor at UTHSCSA, Appellee Dr. Tim Huang, “repeatedly promised”
to promote him to the position of Assistant Professor since he began working at
UTHSCSA in April 2014, contingent on publishing two first-author research papers.
Appellant published an initial first-author research paper in 2016. In 2018, Appellee
Kohzoh Mitsuya submitted for publication a research paper co-authored by Appellant.
Appellant alleges that Mitsuya did not have his permission to submit this paper,
which did not list Appellant as the first author.
Appellant emailed a complaint against Mitsuya to Dr. Tim Huang, copying
UTHSCSA’s human resources department, on April 8, 2018. Appellant asserts that,
in a reply email rejecting Appellant’s complaint in which he copied the human
resources department, Appellee Deanna Hester, and other UTHSCSA employees, Dr.
Tim Huang “attacked [Appellant’s character and professional reputation” and “made
materially false statements” that “degraded] [Appellant’s authorship.” Appellant
subsequently emailed the Dean of the School of Medicine at UTHSCSA to appeal Dr.
Tim Huang’s decision.
A staff meeting was held on April 13, 2018. Appellant alleges that during this
meeting, Dr. Tim Huang asked him to accept the actions taken by Mitsuya and Dr.
Tim Huang with respect to the research paper, threatened termination of
Appellant’s employment, and ordered Appellant to “sit by his desk” in the lab.
According to Appellant, he filed an internal complaint against Dr. Tim Huang as a

3a
Appendix A
result of this meeting, which he asserts “was eventually upheld by UTHSCSA.”
Appellant filed an additional complaint to the University of Texas Systemwide
Compliance Office on June 20, 2018, and was eventually transferred to another lab
on September 4, 2018, where he currently works. Appellant alleges that he asked
UTHSCSA about the status of his complaint and was notified on May 8, 2019, that
no further action would be taken.
Appellant also alleges that (1) Appellee Chun-Liang Chen censored
Appellant’s use of the phrase “I think” in work-related emails; (2) Appellee ChunLin Lin wrongfully claimed authorship of Appellant’s research paper; and (3)
Appellee Deanna Hester claimed that she was not “aware of [Appellant’s then
scheduled promotion.”
On April 1, 2019, Appellant, representing himself pro se, sued Appellees in
Bexar County District Court, alleging various tort claims and violations of the Texas
Constitution, First Amendment, and Fourteenth Amendment. Appellees Tim HuiMing Huang, Chun-Liang Chen, Chun-Lin Lin, Kohzoh Mitsuya, and Deanna
Hester were all timely served on June 6, 2019. These appellees removed the case to
federal district court on June 28, 2019. The remaining appellees had not yet been
served as of this date and were thus not parties to the removal.
Appellant’s Sixth Amended Complaint alleged 47 “counts” against Appellees,
summarized in the chart below.1
1 This chart was included in the district court’s order granting Appellees’ motion to dismiss. Appellees
have again provided this chart in their appellate brief.

4a
Appendix A
Count(s)
1-4
5-6
7-8

Claim(s)
Variations of Defamation
Defamation Per Se by Slander and Conspiracy
Defamation Per Se by Slander and Conspiracy

Defendant(s)
Huang
Huang, Mitsuya
Huang,
Mitsuya,

Lin
Defamation Per Se by Slander and/or
Conspiracy
Intentional Infliction of Emotional Distress
and Conspiracy

John Doe(s) and/or
Jane Doe(s), Huang
Huang, Mitsuya
Huang
Huang, Henrich

•24
25-26

Intentional Infliction of Emotional Distress
Fourteenth Amendment (Liberty, Due Process
and Equal Protection) and 42 U.S.C. § 1983,
and the Constitution of the State of Texas
especially Article 1, Section 19
Fourteenth Amendment and 42 U.S.C. § 1983,
and Violation of the Constitution of the State
of Texas especially Article 1, Section 19 and
Section 3
Fraudulent Misrepresentation
Fraudulent Misrepresentation and Conspiracy

27-32
33-34

Fraud and Conspiracy
Fraud and Conspiracy

35

Constitution of the State of Texas found in
Article 1, Section 8 (Freedom of Speech and
Press Protection) and Section 3 and 3a (Equal
Rights and Equal Protection Amendment),
Violation of Section 1983 of Title 42 of U.S.C.
and Plaintiffs Freedom of Speech and of the
Press granted by the First Amendment to the
U.S. Constitution, and Violation of Due
Process and Equal Protection granted by the
Fourteenth Amendment to the U.S.
Constitution
Constitution of the State of Texas found in
Article 1, Section 15a and Violation of
Plaintiffs Rights of Due Process granted by
the Fourteenth Amendment to the U.S.
Constitution
Constitution of the State of Texas found in
Article 1, Section 19 and Violation of
Plaintiffs Rights of Due Process granted by

Huang, Mitsuya
Huang, his wife,
and Hester
Huang, Henrich

9
10-11
12-21
22

23

36

37-39

Hester

Huang
Chen, Huang

Huang, Henrich

Huang, Potter, and
Henrich

♦

5a
Appendix A

40

41-43

44-47

the Fourteenth Amendment to the U.S.
Constitution
Constitution of the State of Texas found in
Article 1, Section 3 and 3a and Violation of
Plaintiffs Equal Protection Rights granted by
the Fourteenth Amendment to the U.S.
Constitution
Title VII of the Civil Rights Act of 1964,
Hostile Work Environment, Attempted
Constructive Discharge and Conspiracy, and
Violation of the Constitution of the State of
Texas found in Article 1, Section 8, Section 3,
Section 3-a, Violation of First Amendment and
Fourteenth Amendment granted to the U.S.
Constitution, and Violation of Section 1983 of
Title 42 ofU.S.C.
Constitution of the State of Texas found in
Article 1, Section 8 (Freedom of Speech
Protection) and Section 3 and 3a (Equal
Rights and Equal Protection Amendments)
and Violation of Section 1983 of Title 42 of
U.S.C. and Plaintiffs Freedom of Speech and
Express [sic] granted by the First Amendment
to the U.S. Constitution, Violation of Due
Process and Equal Protection granted by the
Fourteenth Amendment to the U.S.
Constitution

Hester, Henrich

Huang,
Chen,
Mitsuya,
Hester,
Henrich,
UTHSCSA,
John
Doe(s) and/or Jane
Doe(s)

Huang,
Hester,
Henrich

Chen,
Potter,

After allowing Appellant to amend his complaint multiple times, the district
court granted Appellees’ motion to dismiss under Federal Rules of Civil Procedure
12(b)(1) and 12(b)(6) on April 29, 2020. Appellant timely appealed.
II.
We review a district court’s grant of a motion to dismiss de novo. Budhathoki
v. Nielsen, 898 F.3d 504, 507 (5th Cir. 2018). We review a district court’s grant of a
motion to stay discovery, denial of a motion to compel disclosure, denial of a motion
to impose sanctions, and denial of a motion to extend a scheduling order deadline

6a
Appendix A
for abuse of discretion. See Richardson v. Henry, 902 F.2d 414, 417 (5th Cir. 1990);
Test Masters Educ. Servs., Inc. v. Singh, 428 F.3d 559, 582 (5th Cir. 2005); U.S. v.
Hale, 685 F.3d 522, 532 (5th Cir. 2012).
III.
Appellant first argues that the district court erred in granting Appellees’
motion to dismiss for lack of subject matter jurisdiction pursuant to Federal Rule of
Civil Procedure 12(b)(1). “A motion under 12(b)(1) should be granted only if it
appears certain that the plaintiff cannot prove any set of facts in support of his claim
that would entitle him to relief.” Home Builders Ass’n of Miss., Inc. v. City of
Madison, Miss., 143 F.3d 1006, 1010 (5th Cir. 1998). “[T]he burden on a [R]ule
12(b)(1) motion is on the party asserting jurisdiction.” Castro v. United States, 608
F.3d 266, 268 (5th Cir. 2010). We address each of the district court’s reasons for
granting Appellees’ motion to dismiss for lack of jurisdiction and, finding no error,
affirm.
A. Eleventh Amendment Immunity
The district court properly dismissed Appellant’s claims against UTHSCSA
(Counts 41-43) as barred by the Eleventh Amendment. The Eleventh Amendment
immunizes states from suit in federal court absent a waiver of this immunity.
Pennhurst State Sch. & Hosp. v. Halderman, 465 U.S. 89, 100-01 (1984). A state
does not waive immunity where it is a party to a suit that is removed to federal court
and the state does not join the removal. Frazier v. Pioneer Americas LLC, 455 F.3d

7a
Appendix A
542, 546-47 (5th Cir. 2006). Under Texas law, state universities such as UTHSCSA
are agencies of the State of Texas and thus entitled to sovereign immunity. Tex.
Gov’t Code Ann. § 572.002(10)(B); see also United States ex rel. King u. Uniu. of Tex.
Health Sci. Ctr.-Houston, 544 F. App’x 490, 495-99 (5th Cir. 2013) (concluding that
the University of Texas Health Science Center at Houston is an arm of the State of
Texas and thus entitled to sovereign immunity). UTHSCSA had not yet been served
when this case was removed to federal court and thus did not join the removal.
UTHSCSA has not otherwise waived sovereign immunity. As an agency of the State,
UTHSCSA is entitled to Eleventh Amendment immunity from this suit.
The district court also properly dismissed Appellant’s claims against
Appellees Henrich and Potter in their official capacities (Counts 22 and 35-37) as
barred by sovereign immunity. “Suits against state officials in their official capacity
{] should be treated as suits against the State.” Hafer v. Melo, 502 U.S. 21, 25 (1991).
Henrich and Potter, both employees of UTHSCSA and state officials, did not join the
removal of this case to federal court and did not otherwise waive sovereign
immunity. Accordingly, Henrich and Potter are entitled to Eleventh Amendment
immunity from suit in their official capacities.
B. Texas Tort Claims Act
Appellant’s state tort claims against individual Appellees in their individual
capacities (Counts 1-21, 24-34, and 41-43) were also properly dismissed. Under
Texas Civil Practice & Remedies Code § 101.106(e), if a suit is filed “against both a

8a
Appendix A
governmental unit and any of its employees, the employees shall immediately be
dismissed on the filing of a motion by the governmental unit.” Tex. Civ. Prac. & Rem.
Code Ann. § 101.106(e). Appellant sued individual Appellees for intentional torts
arising from the same incidents for which he sued UTHSCSA. The district court
thus properly dismissed these claims under § 101.106(e)
Additionally, Texas Civil Practice & Remedies Code § 101.106(f) provides that
“[i]f a suit is filed against an employee of a governmental unit based on conduct
within the general scope of that employee’s employment and if it could have been
brought under this chapter against the governmental unit, the suit is considered to
be against the employee in the employee’s official capacity only.” Tex. Civ. Prac. &
Rem. Code Ann. § 101.106(f). Appellant’s claims against individual Appellees stem
from conduct within the scope of individual Appellees’ employment and could have
been brought against UTHSCSA. These claims were thus also properly dismissed
under § 101.106(f).
C. Standing to Obtain Declaratory and Injunctive Relief
We also agree with the district court that Appellant lacks standing to obtain
his requested declaratory or injunctive relief. In his Sixth Amended Complaint,
Appellant sought a judgment declaring that certain of UTHSCSA’s policies and
actions violate constitutional rights, as well as various forms of injunctive relief
including his immediate promotion to the position of Assistant Professor, immediate
removal of any negative information about Appellant from UTHSCSA’s records,

9a
Appendix A
immediate termination of specified UTHSCSA policies and programs, and
immediate termination by UTHSCSA of each of the individual Appellees.
In order to have Article III standing, Appellant “must show an injury in fact
that is fairly traceable to the challenged action of [Appellees] and likely to be
redressed by [Appellant’s requested relief.” Stringer v. Whitley, 942 F.3d 715, 720
(5th Cir. 2019). The district court found that Appellant’s requested injunctive relief
is “outside what this [cjourt can order,” and further reasoned that much of this
injunctive relief would not remedy Appellant’s alleged injuries. As to Appellant’s
requested declaratory relief, the district court found that Appellant could not make
the required showing that there is a “continuing injury or threatened future injury.”
See Stringer, 942 F.3d at 720. We agree and thus affirm the district court’s grant of
Appellees’ motion to dismiss pursuant to Federal Rule of Civil Procedure 12(b)(1).
IV.
Because the district court’s findings as to lack of jurisdiction under Rule
12(b)(1) do not cover all of Appellant’s claims,2 we turn to the district court’s reasons
for granting Appellees’ motion to dismiss for failure to state a claim. To withstand a
Rule 12(b)(6) motion to dismiss, a plaintiff must plead “enough facts to state a claim
to relief that is plausible on its face.” Bell At. Corp. v. Twombly, 550 U.S. 544, 570

2 In particular, the district court’s jurisdictional findings do not cover Appellant’s claims under 42
U.S.C. § 1983 against Appellees Huang, Chen, Lin, Mitsuya, and Hester, and against Appellees
Henrich and Potter in their individual capacities to the extent that Appellant seeks damages for
these claims. The district court did not make any findings in response to Appellees’ motion to dismiss
argument that individual Appellees acting in their official capacities are not “person[s]” within the
meaning of 42 U.S.C. § 1983.

10a
Appendix A
(2007). “A claim has facial plausibility when the plaintiff pleads factual content that
allows the court to draw the reasonable inference that the defendant is liable for the
misconduct alleged.” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009). Finding no error in
the district court’s reasoning, we affirm.
A. First Amendment
In his Sixth Amended Complaint, Appellant alleged that his First
Amendment rights were violated when he reported alleged “scientific misconduct”
related to his level of authorship in the research paper submitted by Mitsuya and
when he was allegedly censored from using the phrase “I think” in work emails
(Counts 35 and 41-47). The First Amendment limits an employer’s regulation of
speech in the workplace “[s]o long as employees are speaking as citizens about
matters of public concern.” Garcetti u. Ceballos, 547 U.S. 410, 419 (2006). Appellant
did not speak to a matter of public concern when he reported Mitsuya’s alleged
misconduct, as this reporting stemmed from Appellant’s belief that he was entitled
to first authorship of the research paper. Nor did Appellant speak to a matter of
public concern when he used the phrase “I think” in work-related emails. The
district court thus did not err in dismissing Appellant’s First Amendment claims.
B. Fourteenth Amendment Due Process
Appellant asserted that his Fourteenth Amendment Due Process rights were
violated when he was allegedly told to “sit by his desk” in Dr. Tim Huang’s lab, when
Dr. Tim Huang “accused [Appellant] of wrongdoing but refused to give [Appellant]

11a
Appendix A
a chance to clear his name,” and when the complaints Appellant made to UTHSCSA
were not acted upon (Counts 22-23, 35-39, and 41-47). “[I]n § 1983 suits alleging a
violation of the Due Process Clause of the Fourteenth Amendment, . . . [p]laintiffs
must (1) assert a protected liberty or property’ interest and (2) show that they were
deprived of that interest under color of state law.” Doe v. Rains Cnty. Indep. Sch.
Dist., 66 F.3d 1402, 1406 (5th Cir. 1995) (citations omitted). Appellant has not
identified any constitutionally protected liberty or property interest of which he was
deprived. The district court thus correctly dismissed Appellant’s Fourteenth
Amendment Due Process claims.
C. Fourteenth Amendment Equal Protection
Appellant argued in his Sixth Amended Complaint that his Fourteenth
Amendment Equal Protection rights were violated because he was “treated
unfavorably due to his non-religiosity” (Counts 22-23, 35, and 40-47). He alleges the
following facts in support of his Equal Protection claims: (1) Appellant was required
to sit by his desk in the lab; (2) Hester “further intimidated [Appellant]. . . . due to
her inaction” and “failed to protect [Appellant]”; and (3) Chen censored Appellant’s
use of the phrase “I think” in work-related emails.
“To state a claim under the Equal Protection Clause, a § 1983 plaintiff must
allege that a state actor intentionally discriminated against the plaintiff because of
membership in a protected class.” Williams v. Bramer, 180 F.3d 699, 705 (5th Cir.
1999) (internal quotation marks omitted) (quoting Johnson v. Morel, 876 F.2d 477,

12a
Appendix A
479 (5th Cir. 1989)). Appellant has not pleaded facts that allow us to draw a
reasonable inference that he was discriminated against due to his membership in a
protected class. Accordingly, the district court properly dismissed Appellant’s
Fourteenth Amendment Equal Protection claims.
D. Title VII
Appellant argues that he was not promoted due to his non-religiosity in
violation of Title VII of the Civil Rights Act of 1964 (Counts 41-43). In a “failure to
promote” claim under Title VII the plaintiff has the burden to show that “(1) [he]
was within a protected class; (2) [he] was qualified for the position sought; (3) [h]e
was not promoted; and (4) the position [he] sought was filled by someone outside the
protected class.” Blow v. City of San Antonio, 236 F.3d 293, 296 (5th Cir. 2001).
Appellant has not made this prima facie showing. The district court thus did not err
in dismissing Appellant’s Title VII claims.
E. Hostile Work Environment
Appellant asserted hostile work environment claims (Counts 41-43) based
upon the same factual allegations underlying his Title VII and First Amendment
claims. The district court found that “[u]nder either the First Amendment or Title
VII, [Appellant’s hostile work environment claims fail.” We agree. As previously
established, Appellant has not pleaded facts indicating that he spoke to a matter of
public concern and thus has not asserted a plausible First Amendment claim.
Second, Appellant has not made the required showing for a Title VII hostile work

13a
Appendix A
environment claim. “To state a hostile work environment claim under Title VII, the
plaintiff must show that (1) the victim belongs to a protected group; (2) the victim
was subjected to unwelcome harassment; (3) the harassment was based on a
protected characteristic; (4) the harassment affected a term, condition, or privilege
of employment; and (5) the victim’s employer knew or should have known of the
harassment and failed to take prompt remedial action.” EEOC v. WC&M Enters.,
Inc., 496 F.3d 393, 399 (5th Cir. 2007). Appellant has not pleaded facts permitting a
reasonable inference that these elements are present in this case. The district court
therefore correctly dismissed Appellant’s hostile work environment claims.
F. Texas Constitution

In his Sixth Amended Complaint, Appellant alleged various violations of the
Texas Constitution (Counts 22-23 and 35-47). Appellant does not make any
arguments for the validity of his state constitutional claims on appeal. Appellant
has thus waived these issues.
V.
Appellant last argues that the district court abused its discretion in (1)
granting UTHSCSA’s motion to stay discovery and for protective order, (2) denying
Appellant’s motion to compel mandatory initial disclosures and for sanctions, and
(3) denying Appellant’s motion to extend scheduling order deadline. However,
Appellant merely makes conclusory assertions in support of this argument. Because
Appellant has not articulated any reasoning for his contention that the district court

14a
Appendix A
abused its discretion, we decline to consider this argument. See Arredondo v. Univ.
of Tex. Med. Branch, 950 F.3d 294, 298 (5th Cir. 2020).
VI.
For the foregoing reasons, we AFFIRM the district court’s orders granting
Appellees’ motion to dismiss, granting UTHSCSA’s motion to stay discovery and for
protective order, denying Appellant’s motion to compel mandatory initial disclosures
and for sanctions, and denying Appellant’s motion to extend scheduling order
deadline.

15a

APPENDIX B — ORDER OF UNITED STATES DISTRICT
COURT WESTERN DISTRICT OF TEXAS
SAN ANTONIO DIVISION,
DATED APRIL 29, 2020
UNITED STATES COURT DISTRICT COURT WESTERN DISTRICT OF TEXAS
SAN ANTONIO DIVISION
No. 5:19-CV-763-DAE
April 29, 2020.
Guangcun Huang, Plaintiff,
VS.
Tim Hui-Ming Huang; Chun-Liang Chen; Chun-Lin Lin; Kohzoh Mitsuya; Deanna
Hester; Jennifer Potter; William L. Henrich, President, UTHSCSA; John Doe(s);
Jane Doe(s); and University of Texas Health Science Center at San Antonio,
Defendants.
ORDER GRANTING DEFENDANTS’ MOTION TO DISMISS AND
DISMISSING CASE WITH PREJUDICE
Before the Court is a Motion to Dismiss filed by the University of Texas Health
Science Center at San Antonio (“UTHSCSA”), Tim Hui-Ming Huang, Chun-Liang
Chen, Chun-Lin Lin, Kohzoh Mitsuya, Deanna Hester, Jennifer Potter, and William
L. Henrich (“Individual Defendants”) (collectively, “Defendants”) on March 30, 2020
(Dkt. # 55). Pursuant to Local Rule CV-7(h), the Court finds this matter suitable for
disposition without a hearing. After careful consideration of the memorandum filed
in support of and against the motion, the Court—for the reasons that follow—
GRANTS Defendants’ motion.
BACKGROUND
Guangcun Huang (“Plaintiff’) is a postdoctoral fellow at University of Texas
Health Science Center at San Antonio. (Dkt. # 49-2.) Plaintiff began working for

16a
Appendix B
Defendant Tim Huang (“Defendant Huang”) in his lab on or about April 28, 2014. (Id.
at K 16.) Plaintiff alleges that Defendant Huang “repeatedly promised” that Plaintiff
would be promoted, contingent on Plaintiff publishing two first-author research
papers. (Id. at U 17.) Plaintiff published an initial first-author research paper in 2016
(id. at 1| 22), but Plaintiff alleges that his second first-author research paper was
wrongly submitted for publication by Defendant Kohzoh Mitsuya (“Defendant
Mitsuya”) without Plaintiffs permission. (Id. at ^ 23, 26, 29-36.)
Plaintiff made an informal complaint to Defendant Huang against Defendant
Mitsuya during a group meeting on April 2, 2018. (Id. at

37-40.) Plaintiff asserts

that during the meeting, Defendant Huang “repeatedly pressed Plaintiff to disclose
whether Plaintiff had filed a complaint out of Tim Huang’s Lab, implying that Tim
Huang would fire Plaintiff.” (Id. at ^ 41.) Plaintiff further asserts that on April 8,
2018, Plaintiff emailed his complaint to Defendant Huang, copying UTHSCSA
Human Resources. (Id. at ^ 42.) In a reply email that copied UTHSCSA Human
Resources as well as Defendant Deanna Hester and others from UTHSCSA, Plaintiff
asserts that Defendant Huang “attacked Plaintiffs character and professional
reputation” and “made materially false statements” that “degraded] Plaintiffs
authorship.” (Id. at

43-44.) Plaintiff wrote to the Dean of the School of Medicine

at UTHSCSA (the “Dean”), to appeal Defendant Huang’s decision on Plaintiffs
authorship. (Id. at If 45.) Plaintiff asserts that the Dean “as designated by the
President of UTHSCSA, is the final decision maker of Plaintiffs above internal
complaint” and that the Dean created a panel that included Defendant Jennifer

17a
Appendix B
Potter and that “Defendant [William L.] Henrich was copied by the Dean.” (Id. at K1I
46-47.)
On April 13, 2018, Plaintiff met with Defendant Huang, Defendant Deanna
Hester, and others from the lab. (Id. at Kt 52—53.) Plaintiff alleges that he filed an
internal unlawful retaliation complaint against Defendant Huang for “repeated
retaliatory actions towards Plaintiff due to Plaintiffs reporting scientific misconduct
against [Defendant] Mitsuya” as a result of the April 13 meeting. (Id. at K 55.)
Plaintiff asserts that his complaint “was eventually upheld by UTHSCSA ordering
that Tim Huang ‘must5 restore Plaintiffs ‘position with full access to the laboratory
and computer.5” (Id.) After various meetings with Plaintiff, the Dean, and Defendant
Huang, Plaintiff alleges that it became apparent that it “would be impossible for
Plaintiff to resume his work in Defendant Tim Huang’s Lab.” (Id. at KH 56—63.)
Plaintiff also asserts that: (1) Defendant Chun-Liang Chen bullied Plaintiff
and “censor[ed]” Plaintiffs use of the phrase “I think” in email communications (id.
at K 66); (2) Defendant Chun-Lin Lin claimed authorship of Plaintiff s paper discussed
above (id. at K 69); and (3) Defendant Deanna Hester was not “aware of Plaintiffs
then scheduled promotion” (id. at K 82).
On June 20, 2018, Plaintiff filed an additional complaint to the University of
Texas

Systemwide

Compliance

Office

regarding

Defendant Huang’s

“Non-

Compliance with the May 1, 2018 Determination of Unlawful Retaliation Violation”
among other things. (Id. at |K 95-96, 104-105.) After an unsuccessful attempt to
obtain a different job at UTHSCSA, Plaintiff was transferred to another lab on

18a

Appendix B
September 4, 2018, where he currently works. (Id. at TfH 107, 110.) Plaintiff alleges
that he asked about the status of his complaint and was notified on May 8, 2019, that
no further action would be taken by UTHSCSA. (Id. at ^ 111.)
PROCEDURAL BACKGROUND
On April 1, 2019, Plaintiff, who is representing himself pro se, brought suit in
Bexar County District Court, alleging various tort claims, violations of the
Whistleblower Act, and bringing claims under the Texas Constitution, First
Amendment, and Fourteenth Amendment. (Dkt. # 1.) Tim Hui-Ming Huang, ChunLiang Chen, Chun-Lin Lin, Kohzoh Mitsuya, and Deanna Hester were all timely
served on June 6, 2019. (Id.) On or about June 28, 2019, these individual defendants
removed the case to federal court. (Id.) While Plaintiff added UTHSCSA as a
defendant in his first and second amended original petitions in state court, as of the
date of the notice of removal, UTHSCSA had not yet been served. (Id.)
Plaintiff filed a notice of charge of discrimination with the Equal Employment
Opportunity Commission (“EEOC”) on May 13, 2019. On July 10, 2019, UTHSCSA
wrote a letter explicitly asking for the EEOC to dismiss the charge and to issue a
Right to Sue letter so that the University would be able to “defend all of Dr. G.
Huang’s alleged complaints in the Charge under one lawsuit.” (Dkt. # 48.) The EEOC
issued Plaintiff a right to sue letter on or around February 20, 2020, stating that
Plaintiff could file a lawsuit under federal law based on the religious discrimination
allegations. (Id.)

19a
Appendix B
On September 23, 2019, UTHSCSA filed a Motion to Dismiss. (Dkt. # 8.) On
October 15, 2019, Plaintiff filed a Motion for Leave to File an Amended Complaint.
(Dkt. # 13.) This Court granted Plaintiffs Motion and dismissed without prejudice
UTHSCSA’s Motion. (Dkt. # 18.) Defendants subsequently filed an opposed Motion to
Stay Discovery and Protective Order (Dkt. # 25), which this Court granted on
November 15, 2019 (Dkt. # 33).
On November 21, 2019, Defendants filed a second Motion to Dismiss based on
the new allegations in Plaintiffs Amended Complaint. (Dkt. # 34.) On November 27,
2019, Plaintiff filed an opposed Motion to Extend Scheduling Order Deadlines and an
opposed Motion to Amend the Complaint. (Dkt. # 35.) On December 5, 2019, this
Court denied Plaintiffs motion to modify the Court’s scheduling order, allowed
Plaintiff to amend his complaint, and dismissed without prejudice to refiling
Defendants’ motion to dismiss. (Dkt. # 38.) In its order, this Court cautioned Plaintiff
that the Court would “look unfavorably upon further amendments” as another motion
to amend would “indicate a repeated failure to cure deficiencies by amendments
previously allowed, which is a factor that goes against granting a motion to amend.”
(I&)
On January 17, 2020, Defendants filed a third motion to dismiss (Dkt. # 41),
and on March 2, 2020, Plaintiff filed an opposed motion to amend his complaint (Dkt.
# 49). The Court was more than hesitant to allow Plaintiff to amend his pleadings yet
again. However, the Court opted to grant Plaintiff his last and final chance to amend
his complaint prior to this Court ruling on the motion to dismiss. (Dkt. # 52.) In its

20a
Appendix B
order, the Court allowed for Plaintiff to amend his complaint to include his allegations
of religious discrimination and dismissed without prejudice Defendants’ third motion
to dismiss. (Id.)
The operative complaint (Dkt. # 49-2) asserts the following counts and claims
against the various Defendants:
Count(s)
1-4
5-6
7-8

Claim(s)
Variations of Defamation
Defamation Per Se by Slander and Conspiracy
Defamation Per Se by Slander and Conspiracy

9

Defamation Per Se by Slander and/or
Conspiracy
Intentional Infliction of Emotional Distress
and Conspiracy

10-11
12-21
22

Defendant(s)
Huang
Huang, Mitsuya
Huang,
Mitsuya,
Lin
John Doe(s) and/or
Jane Doe(s), Huang
Huang, Mitsuya
Huang
Huang, Henrich

24
25-26

Intentional Infliction of Emotional Distress
Fourteenth Amendment (Liberty, Due Process
and Equal Protection) and 42 U.S.C. § 1983,
and the Constitution of the State of Texas
especially Article 1, Section 19_______________
Fourteenth Amendment and 42 U.S.C. § 1983,
and Violation of the Constitution of the State
of Texas especially Article 1, Section 19 and
Section 3
Fraudulent Misrepresentation
Fraudulent Misrepresentation and Conspiracy

27-32
33-34

Fraud and Conspiracy
Fraud and Conspiracy

35

Constitution of the State of Texas found in
Article 1, Section 8 (Freedom of Speech and
Press Protection) and Section 3 and 3a (Equal
Rights and Equal Protection Amendment),
Violation of Section 1983 of Title 42 of U.S.C.
and Plaintiffs Freedom of Speech and of the
Press granted by the First Amendment to the
U.S. Constitution, and Violation of Due
Process and Equal Protection granted by the

Huang, Mitsuya
Huang, his wife,
and Hester
Huang, Henrich

23

Hester

Huang
Chen, Huang

21a
Appendix B

36

37-39

40

41-43

44-47

Fourteenth Amendment to the U.S.
Constitution
Constitution of the State of Texas found in
Article 1, Section 15a and Violation of
Plaintiffs Rights of Due Process granted by
the Fourteenth Amendment to the U.S.
Constitution
Constitution of the State of Texas found in
Article 1, Section 19 and Violation of
Plaintiffs Rights of Due Process granted by
the Fourteenth Amendment to the U.S.
Constitution
Constitution of the State of Texas found in
Article 1, Section 3 and 3a and Violation of
Plaintiffs Equal Protection Rights granted by
the Fourteenth Amendment to the U.S.
Constitution
Title VII of the Civil Rights Act of 1964,
Hostile Work Environment, Attempted
Constructive Discharge and Conspiracy, and
Violation of the Constitution of the State of
Texas found in Article 1, Section 8, Section 3,
Section 3-a, Violation of First Amendment and
Fourteenth Amendment granted to the U.S.
Constitution, and Violation of Section 1983 of
Title 42 of U.S.C.
Constitution of the State of Texas found in
Article 1, Section 8 (Freedom of Speech
Protection) and Section 3 and 3a (Equal
Rights and Equal Protection Amendments)
and Violation of Section 1983 of Title 42 of
U.S.C. and Plaintiffs Freedom of Speech and
Express [sic] granted by the First Amendment
to the U.S. Constitution, Violation of Due
Process and Equal Protection granted by the
Fourteenth Amendment to the U.S.
Constitution

Huang, Henrich

Huang, Potter, and
Henrich

Hester, Henrich

Huang,
Chen,
Mitsuya,
Hester,
Henrich,
UTHSCSA,
John
Doe(s) and/or Jane
Doe(s)

Huang,
Hester,
Henrich

Chen,
Potter,

Before the Court is Defendants’ fourth motion to dismiss, brought under
Federal Rules of Civil Procedure 12(b)(1) and 12(b)(6). (Dkt. # 55.) This motion is ripe
for this Court’s review after Plaintiff timely responded on April 13, 2020 (Dkt. # 57),

22a
Appendix B
and Defendants filed a reply on April 20, 2020 (Dkt. # 59). Over opposition, Plaintiff
was allowed to file a sur-reply (Dkt. # 61-2).1
LEGAL STANDARDS
A motion to dismiss under Rule 12(b)(1) of the Federal Rules of Civil
Procedure challenges a federal court’s subject matter jurisdiction. See Fed. R. Civ.
P. 12(b)(1). Under Rule 12(b)(1), a claim is properly dismissed for lack of subject
matter jurisdiction “when the court lacks the statutory or constitutional authority
to adjudicate the case.” Home Builders Ass’n of Mississippi. Inc, v. City of Madison,
Miss.. 143 F.3d 1006, 1010 (5th Cir. 1998) (citation omitted). In considering a Rule
12(b)(1) motion to dismiss for lack of subject matter jurisdiction, “a court may
evaluate (1) the complaint alone, (2) the complaint supplemented by undisputed
facts evidenced in the record, or (3) the complaint supplemented by undisputed facts
plus the court’s resolution of disputed facts.” Den Norske Stats Olieselskap As_v.
HeereMac Vof. 241 F.3d 420, 424 (5th Cir. 2001) (citation omitted). “A motion under
12(b)(1) should be granted only if it appears certain that the plaintiff cannot prove
any set of facts in support of his claim that would entitle him to relief.” 143 F.3d at
1010.
Federal Rule of Civil Procedure 12(b)(6) authorizes dismissal of a complaint for
“failure to state a claim upon which relief can be granted.” To survive a Rule 12(b)(6)
1 Ordinarily, this Court would not have allowed Plaintiff to file a surreply as those are “heavily
disfavored by courts.” See Warrior Energy Servs. Corn, v. ATP Titan M/V. 551 F. App’x 749, 751 n.2
(5th Cir. 2014) (citation and internal quotation marks omitted). However, given Plaintiff s pro se status,
the Court made an exception and will give the surreply the weight it deserves.

23a
Appendix B
motion to dismiss, a plaintiff must plead “enough facts to state a claim to relief that
is plausible on its face.” Bell Atl. Corn, v. Twomblv. 550 U.S. 544, 570 (2007). “A claim
has facial plausibility when the plaintiff pleads factual content that allows the court
to draw the reasonable inference that the defendant is liable for the misconduct
alleged.” Ashcroft v. Iqbal. 556 U.S. 662, 678 (2009). In analyzing whether to grant a
Rule 12(b)(6) motion, a court accepts as true “all well-pleaded facts” and views those
facts “in the light most favorable to the plaintiff.” United States ex rel. Vavra v.
Kellogg Brown & Root. Inc.. 727 F.3d 343, 346 (5th Cir. 2013) (citation omitted). A
court need not “accept as true a legal conclusion couched as a factual allegation.”
Iqbal. 556 U.S. at 678.
DISCUSSION
A. Defendants’ Motion to Dismiss under Rule 12(b)(1)
“When a Rule 12(b)(1) motion is filed in conjunction with other Rule 12 motions,
the court should consider the Rule 12(b)(1) jurisdictional attack before addressing
any attack on the merits” because without jurisdiction, the case can proceed no
further. See Ramming v. United States. 281 F.3d 158, 161 (5th Cir. 2001); see also
Ruhrgas AG v. Marathon Oil Co.. 526 U.S. 574, 583 (1999) (“Subject-matter
limitations on federal jurisdiction serve institutional interests. They keep the federal
courts within the bounds the Constitution and Congress have prescribed. Accordingly,
subject-matter delineations must be policed by the courts on their own initiative even
at the highest level.”). As discussed below, the Court finds that it does not have
subject-matter jurisdiction over these claims.

24a
Appendix B
The Eleventh Amendment provides that “[t]he Judicial power of the United
States shall not be construed to extend to any suit in law or equity, commenced or
prosecuted against one of the United States by Citizens of another State, or by
Citizens or Subjects of any Foreign State.” U.S. Const, amend. XI. “Federal courts are
without jurisdiction over suits against a state, a state agency, or a state official in his
official capacity unless that state has waived its sovereign immunity or Congress has
clearly abrogated it.” NiGen Biotech. L.L.C. v. Paxton. 804 F.3d 389, 393—94 (5th Cir.
2015). Under Texas law, state universities such as UTHSCSA are considered agencies
of the State of Texas that are entitled to sovereign immunity. See Tex. Gov’t Code
Ann. § 572.002(10)(B) (defining “a university system or an institution of higher
education” as a “state agency”); U.S. ex rel. King v. Univ. of Texas Health Sci. Ctr^
Houston. 544 F. App’x 490, 495 (5th Cir. 2013) (“A survey of Texas statutes and
caselaw reveals that the first Clark factor weighs in favor of finding UTHSCH an arm
of the state.”). As noted by the Fifth Circuit, the Texas “state constitution provides
for the establishment of the University of Texas System” and Texas statutes consider
a “[public] university system or an institution of higher education” to be a “state
agency.” 544 F. App’x at 495.
Accordingly, UTHSCSA is “inarguably a state agency . . . that is entitled to
sovereign immunity.” Sissom v. Univ. of Texas High Sch., 927 F.3d 343, 348 (5th Cir.
2019) (internal citations omitted); see also Williams v. Univ. of Houston Downtown
Police Den’t. 2019 WL 2931669, at *2 (S.D. Tex. June 18, 2019) (“Under Texas Law,
state universities are agencies of the state and enjoy immunity under the Eleventh

25a
Appendix B
Amendment.”), report and recommendation adopted. 2019 WL 2913765 (S.D. Tex.
July 8, 2019). UTHSCSA has not consented to suit, was not a party to removal from
state court, and Congress has not expressly waived Eleventh Amendment immunity.
See Lewis v. Univ. of Texas Med. Branch at Galveston. 665 F.3d 625, 630 (5th Cir.
2011); NiGen Biotech. 804 F.3d at 394 (“Texas has not consented by statute, and §
1983 does not abrogate state sovereign immunity.”); Sissom, 927 F.3d 343, 347 (5th
Cir. 2019) (“When a state agency is the named defendant, the Eleventh Amendment
bars suits for both money damages and injunctive relief unless the state has waived
its immunity.” (citation omitted)). Accordingly, UTHSCSA is entitled to immunity
from Plaintiffs claims “regardless of the nature of the relief sought.” Pennhurst State
Sch. & Hosp. v. Halderman. 465 U.S. 89, 100 (1984). Thus, all claims brought against
UTHSCSA including the intentional tort claim of conspiracy, purported violations of
the Texas Constitution, and First and Fourteenth Amendment claims, are dismissed.
See Phelan v. Norville. 460 F. App’x 376, 379 n.2 (5th Cir. 2012) (“The state-law
claims against Texas Tech were also dismissed because they alleged intentional torts,
which are barred when brought against governmental units by the Texas Tort Claims
Act.”); Will v. Michigan Dep’t of State Police. 491 U.S. 58, 66 (1989) (“Section 1983
provides a federal forum to remedy many deprivations of civil liberties, but it does
not provide a federal forum for litigants who seek a remedy against a State for alleged
deprivations of civil liberties. The Eleventh Amendment bars such suits unless the
State has waived its immunity, or unless Congress has exercised its undoubted

26a
Appendix B
powerunder § 5 of the Fourteenth Amendment to override that immunity.” (internal
citation omitted)).
Additionally, the Eleventh Amendment also extends “to state officials who are
sued in their official capacity because such a suit is actually one against the state
itself.” McKinley v. Abbott. 643 F.3d 403, 406 (5th Cir. 2011). Accordingly, Plaintiffs
claims against Defendant Potter and Defendant Henrich in their official capacities
are also barred, including the tort claims, claims under the Texas Constitution, and
the First and Fourteenth Amendment claims. See Martinez v. McClane. 792 F. App’x
282, 287 (5th Cir. 2019) (“Because Martinez proceeds against McLane solely in her
official capacity, the Eleventh Amendment bars federal jurisdiction over his claims
for violations of the Texas Constitution.”) Neither Defendant Potter nor Defendant
Henrich were parties to removal, and they did not consent to suit in federal court. For
these reasons, the Court will grant Defendants’ motion as it pertains to these
Defendants and will dismiss Plaintiffs claims against Defendant Potter and
Defendant Henrich in their official capacities.2
Finally, the Court also finds that it does not have jurisdiction over Individual
Defendants as they are also entitled to qualified immunity. Under Texas Civil
Practice & Remedies Code Section 101.106(e), if a suit is filed “against both a

2 The Court also finds that the Exnarte Young doctrine does not apply in this case. 209 U.S. 123 (1908).
Under this doctrine, a state official attempting to enforce an unconstitutional law “is stripped of his
official clothing and becomes a private person subject to suit.” 804 F.3d at 394 (citing K.P. v. LeBlanc,
627 F.3d 115, 124 (5th Cir. 2010)): Here, Plaintiff has not sufficiently alleged an “ongoing violation of
federal law” to meet this doctrine. Id. Furthermore, the Court finds that the relief that Plaintiff seeks
is not “declaratory or injunctive in nature and prospective in effect” in order to meet this doctrine.
Saltz v. Tennessee Deu’t of Employment Sec.. 976 F.2d 966, 968 (5th Cir. 1992).

27a
Appendix B
governmental unit and any of its employees, the employees shall immediately be
dismissed on the filing of a motion by the governmental unit.” Tex. Civ. Prac. &
Rem.Code Ann. § 101.106(e); see also Mission Consol. Indep. Sch. Dist. v. Garcia, 253
S.W.3d 653, 657 (Tex. 2008) (“Because the decision regarding whom to sue has
irrevocable consequences, a plaintiff must proceed cautiously before filing suit and
carefully consider whether to seek relief from the governmental unit or from the
employee individually.”). Additionally, under Section 101.106(f), “[i]f a suit is filed
against an employee of a governmental unit based on conduct within the general
scope of that employee’s employment and if it could have been brought under this
chapter against the governmental unit, the suit is considered to be against the
employee in the employee’s official capacity only.” Tex. Civ. Prac. & Rem. Code Ann.
§ 101.106(f). Thus, Individual Defendants are entitled to dismissal of the claims
against them in their individual capacities “upon proof that the plaintiffs suit (1) was
based on conduct within the scope of the defendant’s employment with a
governmental unit and (2) could have been brought against the governmental unit
under the [TTCA1.” Hundall v. Univ. of Texas at El Paso. No. EP-13-CV-00365-DCG,
2014 WL 12496895, at *12 (W.D. Tex. Feb. 21, 2014) (citations omitted); Tex. Civ.
Prac. & Rem. Code § 101.001(5) (defining “scope of employment” as “the performance
for a governmental unit of the duties of an employee’s office or employment and
includes being in and about the performance of a task lawfully assigned to an
employee by competent authority”).

28a
Appendix B
Here, Individual Defendants are being sued for intentional torts arising for the same
incidents that UTHSCSA is being sued, and thus the Court may dismiss these claims
against Individual Defendants under Section 101.106(e). But additionally, Plaintiffs
allegations against Individual Defendants stem from conduct within the scope of their
employment by UTHSCSA and thus are barred under Section 101.106(f). Although
Plaintiff asserts that Defendant Huang’s actions were outside the scope of his
employment, the Court finds that the intentional tort claims alleged by Plaintiff are
on their face related to staff meetings, work-related communications, and workrelated research or reviews and subject to section 101.106. See Mission Consol., 253
S.W.3d at 659 (“Because the Tort Claims Act is the only, albeit limited, avenue for
common-law recovery against the government, all tort theories alleged against a
governmental unit, whether it is sued alone or together with its employees, are
assumed to be under [the Tort Claims Act] for purposes of section 101.106.” (citation
and internal quotation marks omitted)); Fink v. Anderson. 477 S.W.3d 460, 469 (Tex.
App. 2015) (“Most telling, the Texas Supreme Court has rendered judgment for a
governmental employee after concluding that claims against him for intentional
infliction of emotional distress and conspiracy to intentionally inflict emotional
distress were subject to dismissal under Section 101.106(f).”). Furthermore, the Court
finds that Plaintiff has also failed to prove that qualified immunity is inapplicable.
Waganfealdv. Gusman. 674 F.3d 475, 483 (5th Cir. 2012) (“When a defendant asserts
qualified immunity, the plaintiff has the burden of proving that it is inapplicable.”).

29a
Appendix B
Thus, Plaintiffs claims against Individual Defendants acting in their individual
capacities must be dismissed due to this Court’s lack of subject matter jurisdiction.
Additionally, the Court also agrees with Defendants that Plaintiff lacks
standing to obtain declaratory or injunctive relief. “To have Article III standing, a
plaintiff must show an injury in fact that is fairly traceable to the challenged action
of the defendant and likely to be redressed by the plaintiffs requested relief.” Stringer
v. Whitlev. 942 F.3d 715, 720 (5th Cir. 2019). The injunctive relief that Plaintiff seeks
is outside what this Court can order - for instance, the Court will not order the
destruction of records as that contravenes state law. (See Dkt. # 49-2 at ^ 296.)
Furthermore, the Court also finds it difficult to understand how the injunctive relief
of terminating various individuals and UTSCSA’s new research incentive program
would remedy the alleged injuries in any of Plaintiffs claims. (Id.) As for the
declaratory relief sought by Plaintiff (ick at H 297), the Court determines that such
relief is unwarranted because Plaintiff cannot show that there is a “continuing injury
or threatened future injury.” See Stringer. 942 F.3d at 720 (“Because injunctive and
declaratory relief ‘cannot conceivably remedy any past wrong,’ plaintiffs seeking
injunctive and declaratory relief can satisfy the redressability requirement only by
demonstrating a continuing injury or threatened future injury.” (citation omitted)).
In sum, the Court finds that it does not have jurisdiction over Plaintiffs claims and
that the motion to dismiss under Rule 12(b)(1) shall be GRANTED.

30a
Appendix B
B. Motion to Dismiss under Rule 12(b)(6)
Even if this Court had jurisdiction over Plaintiffs claims, the Court finds that
Plaintiff fails to meet the standards under Rule 12(b)(6).
First, as to Plaintiffs First Amendment claims, the Court finds that Plaintiffs
speech was not protected when he reported alleged “scientific misconduct” stemming
from his level of authorship in the research papers, and Plaintiff was not speaking on
a matter of public concern when he was allegedly told to stop using the phrase “I
think” in work email. (See Dkt. # 49-2.) It is true that “[s]o long as employees are
speaking as citizens about matters of public concern, they must face only those speech
restrictions that are necessary for their employers to operate efficiently and
effectively.” Garcetti v. Ceballos, 547 U.S. 410, 419 (2006). Here, however, Plaintiff
was not speaking of matters of public concern when he sought to get credit for the
research papers he allegedly wrote. See Graziosi v. City of Greenville. 775 F.3d 731,
738—39 (5th Cir. 2015) (“Speech involves a matter of public concern if it can be fairly
considered as relating to any matter of political, social, or other concern to the
community.” (citation and internal quotation marks omitted)). Nor does this Court
find Plaintiffs allegation that he was “censored” from using the phrase “I think” to
be a matter of public concern. Plaintiff used his work emails while he was performing
the tasks he was being paid to perform. As the Supreme Court has noted before:
Employers have heightened interests in controlling speech made by an
employee in his or her professional capacity. Official communications
have official consequences, creating a need for substantive consistency
and clarity. Supervisors must ensure that their employees’ official
communications are accurate, demonstrate sound judgment, and
promote the employer’s mission.

31a
Appendix B
547 U.S. at 422-23. The Court finds that Plaintiffs grievances based on the pleadings
and even viewed in the light most favorable to Plaintiff, stemmed primarily from his
desire to be given primary authorship of a manuscript, not from a matter of public
concern, and that being told to write emails in a certain way during the course of his
duties did not somehow violate the First Amendment.
Second, as to Plaintiffs Fourteenth Amendment Due Process and Equal
Protection claims, the Court finds that even if Plaintiffs allegation that Individual
Defendants were “all aware of Plaintiffs non-religiosity” that alone does not save
Plaintiffs claims. Without any identification of a constitutionally protected liberty or
property interest, this Court finds that these claims fail as they do not rise above the
speculative level.3
Third, as to Plaintiffs Title VII claim, the Court finds that Plaintiff has not
alleged sufficient facts to create the reasonable inference that Defendants took an
adverse employment action against Plaintiff because of his protected status. Title VII
prohibits employers from discriminating against employees and potential employees
based on an individual’s race, color, religion, sex, or national origin. 42 U.S.C. §
2000e—2(a). However, to prevail on this type of claim, Plaintiff has the initial burden
of “proving by the preponderance of the evidence a prima facie case of discrimination.”
Texas Den’t of Cmtv. Affairs v. Burdine. 450 U.S. 248, 252—53 (1981); Rachid v. Jack
3 Plaintiff seemingly asserts that his liberty interest was Defendant Huang ordering Plaintiff to sit by
his desk. (Dkt. # 61-2.) That allegation does not help this Court in finding that Plaintiffs claims
identify a constitutionally protected liberty or property interest.

32a
Appendix B
In The Box, Inc., 376 F.3d 305, 312 (5th Cir. 2004) (discussing the McDonnell Douglas
approach). Here, Plaintiff asserts that he was denied a promotion due to his non
religiosity, but without any explanation beyond his own conclusory allegations. Being
uncomfortable during alleged discussions about religion or due to the fact that
employees “belong to the same church” as a supervisor, does not create an inference
that Plaintiff was denied a promotion due to his non-religiosity or that there is a
cognizable Title VII claim.4 Plaintiffs complaint does not allege any facts, direct or
circumstantial, that suggest that (1) Defendants’ actions were based on Plaintiffs
non-religiosity; (2) Defendants treated similarly situated employees who were
religious more favorably; or (3) “discrimination was even a motivating factor in the
defendant’s challenged employment decision.” See Comcast Corn, v. Nat’l Ass’n of
African Am.-Owned Media. 140 S. Ct. 1009, 1017 (2020); Rai v. La. State Univ., 714
F.3d 322, 331 (5th Cir. 2013) (“Even assuming, arguendo, that the laboratory closure,
reassignment, and salary renegotiations constituted adverse employment actions, the
ultimate question in a Title VII disparate treatment claim remains whether a
defendant took the adverse employment action against a plaintiff because of her
protected status.” (emphasis in original) (citation and internal quotation marks
omitted)); Chhim v. Univ. of Texas at Austin. 836 F.3d 467, 470—72 (5th Cir. 2016)
(“Chhim pleads no facts that suggest the applicant hired by the University was less
qualified than Chhim or was similarly situated.”). Thus, this Court finds Plaintiff has
4 Furthermore, the Court finds that Plaintiff cannot bring a Title VII action against both an
employer and an employee in his official capacity. Llovd v. Birkman. 127 F. Supp. 3d 725, 745 (W.D.
Tex. 2015) (“It is well established that Title VII does not permit plaintiffs to recover against
individual employees.”).

33a
Appendix B
failed to state a claim for disparate treatment under Title VII.
Fourth, as to Plaintiffs hostile work environment claims,5 the Court finds that
there is no support for these claims and thus must be dismissed. Under either the
First Amendment or Title VII, Plaintiffs hostile work environment claims fail. First,
as noted above, Plaintiff lacks protected speech and thus cannot bring this claim
under the First Amendment. See Nixon v. City of Houston. 511 F.3d 494, 497 (5th
Cir. 2007)). Second, the Court finds that Plaintiffs allegations within the complaint
fail to go beyond conclusory allegations of how the hostility and harassment somehow
is based on his membership in a protected class. See Shepherd v. Comptroller of
Public Accounts. 168 F.3d 871, 873-74 (5th Cir. 1999) (“Title VII was only meant to
bar conduct that is so severe and pervasive that it destroys a protected class member’s
opportunity to succeed in the workplace.”) Under a religion-based hostile work
environment claim, Plaintiff would need to allege that “(1) that he belongs to a
protected class; (2) he was subject to unwelcome harassment; (3) the harassment
complained of was based on his protected characteristic; (4) the harassment affected
a term, condition, or privilege of employment; and (5) the employer knew or should
have known of the harassment and failed to take prompt remedial action.” Ramsey v.
Henderson. 286 F.3d 264, 268 (5th Cir.2002). “In determining whether a workplace
5 Plaintiff also brings an “attempted constructive discharge claim” which Defendants assert is not a
cognizable cause of action. The Court agrees and also notes that Plaintiff does not allege facts sufficient
to allege constructive discharge as it does not appear that he actually resigned. See Kelleher v. Flawn,
761 F.2d 1079, 1086 (5th Cir. 1985) (noting that an “employer’s activities may be deemed to amount
to a constructive discharge only if the employer made conditions so intolerable that the employee
reasonably felt compelled to resign”); Green v. Brennan. 136 S. Ct. 1769, 1777 (2016) (noting that for
a claim of constructive discharge Plaintiff “must also show that he actually resigned”). Thus, this claim
must be dismissed.

34a
Appendix B
constitutes a hostile work environment, courts must consider the following
circumstances: the frequency of the discriminatory conduct; its severity; whether it is
physically threatening or humiliating, or a mere offensive utterance; and whether it
unreasonably interferes with an employee’s work performance.” Id. (citation and
internal quotation marks omitted). This Court finds that Plaintiffs conclusory on a
hostile work environment. See Iqbal, 556 U.S. at 678 (noting that a court need not
“accept as true a legal conclusion couched as a factual allegation”).
Finally, as to Plaintiffs claims alleging violations of the Texas Constitution
against Individual Defendants, the Court finds that these claims are unavailing.
Plaintiff fails to allege facts that support this Court finding a constitutional violation,
and there is no private right of action for damages under the Texas Constitution.
Daniels v. City of Arlington. Tex.. 246 F.3d 500, 507 n.33 (5th Cir. 2001) (noting that
there is no claim for damages under Tex. Const, art. I, section 6 and there is no
“implied private right of action for damages arising under the free speech and free
assembly sections of the Texas Constitution” (citations omitted)); City of Beaumont
v. Rmiillion. 896 S.W.2d 143, 147 (Tex. 1995) (“Because Texas has no provision
comparable to § 1983, the first question must be answered by determining whether a
private right of action for damages can be implied under the Texas Constitution. We
hold there is no implied private right of action for damages arising under the free
speech and free assembly sections of the Texas Constitution.”).

35a
Appendix B
Thus, in light of the foregoing, even if this Court had jurisdiction over
Plaintiffs claims, the Court finds that Defendants’ motion to dismiss shall be
GRANTED for failure to state a claim upon which relief can be granted.
CONCLUSION
Based on the foregoing, the Court GRANTS Defendants’ Motion and
DISMISSES THIS CASE WITH PREJUDICE. Although ordinarily this Court
would grant Plaintiff leave to amend, this Court has given Plaintiff more than enough
chances to amend his complaint and no further amendments will be permitted. See
Chhim. 836 F.3d at 469 (“We hold pro se plaintiffs to a more lenient standard than
lawyers when analyzing complaints, but pro se plaintiffs must still plead factual
allegations that raise the right to relief above the speculative level.”). The Clerk is
INSTRUCTED to CLOSE THIS CASE.
IT IS SO ORDERED.
DATED: San Antonio, Texas, April 29, 2020.

(Signature)
David Alan Ezra
Senior United States District Judge

36a
APPENDIX C — ORDER OF THE UNITED STATES COURT OF
APPEALS, FIFTH CIRCUIT ON PETITION FOR REHEARING
EN BANC,
DATED FEBRUARY 10, 2021
UNITED STATES COURT OF APPEALS, FIFTH CIRCUIT
No. 20-50445.
March 24, 2021.
Guangcun Huang, Plaintiff-Appellant,
versus
Tim Hui-Ming Huang; Chun-Liang Chen; Chun-Lin Lin; Kohzoh Mitsuya; Deanna
Hester; John Does; Jane Does; University of Texas Health Science Center at San
Antonio; Jennifer S. Potter; William L. Henrich, President, UTHSCSA; Other
UTHSCSA Employees, Defendants-Appellees.
Appeal from the United States District Court for the Western District of Texas
USDC No. 5:19-CV-763
ON PETITION FOR REHEARING EN BANC
(Opinion 02/10/2021, 5 Cir.,

F.3d

Before Clement, Higginson, and Engelhardt, Circuit Judges.
Per Curiam:
Treating the Petition for Rehearing En Banc as a Petition for Panel Rehearing,
the Petition for Panel Rehearing is DENIED. No member of the panel nor judge in
regular active service of the court having requested that the court be polled on
Rehearing En Banc (FED. R. APP. P. and 5th ClR. R. 35), the Petition for Rehearing
En Banc is DENIED.

37a

APPENDIX D — 42 U.S.C. § 2000e, 2000e-2(a), 2000e-5(a)-(g)
42 U.S.C. § 2000e.
For the purposes of this subchapter—
(a) The term “person” includes one or more individuals, governments,
governmental agencies, political subdivisions, labor unions, partnerships,
associations, corporations, legal representatives, mutual companies, joint-stock
companies, trusts, unincorporated organizations, trustees, trustees in cases under
title 11, or receivers.
(b) The term “employer” means a person engaged in an industry affecting
commerce who has fifteen or more employees for each working day in each of
twenty or more calendar weeks in the current or preceding calendar year, and any
agent of such a person, but such term does not include (1) the United States, a
corporation wholly owned by the Government of the United States, an Indian tribe,
or any department or agency of the District of Columbia subject by statute to
procedures of the competitive service (as defined in section 2102 of title 5), or (2)
a bona fide private membership club (other than a labor organization) which is
exempt from taxation under section 501(c) of title 26, except that during the first
year after March 24, 1972, persons having fewer than twenty-five employees (and
their agents) shall not be considered employers.

(f) The term “employee” means an individual employed by an employer, except
that the term “employee” shall not include any person elected to public office in
any State or political subdivision of any State by the qualified voters thereof, or
any person chosen by such officer to be on such officer’s personal staff, or an
appointee on the policy making level or an immediate adviser with respect to the
exercise of the constitutional or legal powers of the office. The exemption set forth
in the preceding sentence shall not include employees subject to the civil service
laws of a State government, governmental agency or political subdivision. With
respect to employment in a foreign country, such term includes an individual who
is a citizen of the United States.

42 U.S.C. § 2000e-2.
(a) Employer practices
It shall be an unlawful employment practice for an employer—

38a
Appendix D
(1) to fail or refuse to hire or to discharge any individual, or otherwise to
discriminate against any individual with respect to his compensation, terms,
conditions, or privileges of employment, because of such individual’s race, color,
religion, sex, or national origin; or
(2) to limit, segregate, or classify his employees or applicants for employment
in any way which would deprive or tend to deprive any individual of
employment opportunities or otherwise adversely affect his status as an
employee, because of such individual’s race, color, religion, sex, or national
origin.
42 U.S.C. § 2000e-5(a)-(g).
(a) Power of Commission to prevent unlawful employment practices
The Commission is empowered, as hereinafter provided, to prevent any person
from engaging in any unlawful employment practice as set forth in section 2000e—
2 or 2000e-3 of this title.
(b) Charges by persons aggrieved or member of Commission of unlawful
employment practices by employers, etc.; filing; allegations; notice to respondent;
contents of notice; investigation by Commission; contents of charges; prohibition
on disclosure of charges; determination of reasonable cause; conference,
conciliation, and persuasion for elimination of unlawful practices; prohibition on
disclosure of informal endeavors to end unlawful practices; use of evidence in
subsequent proceedings; penalties for disclosure of information; time for
determination of reasonable cause
Whenever a charge is filed by or on behalf of a person claiming to be aggrieved, or
by a member of the Commission, alleging that an employer, employment agency,
labor organization, or joint labor-management committee controlling
apprenticeship or other training or retraining, including on-the-job training
programs, has engaged in an unlawful employment practice, the Commission
shall serve a notice of the charge (including the date, place and circumstances of
the alleged unlawful employment practice) on such employer, employment agency,
labor organization, or joint labor-management committee (hereinafter referred to
as the “respondent”) within ten days, and shall make an investigation thereof.
Charges shall be in writing under oath or affirmation and shall contain such
information and be in such form as the Commission requires. Charges shall not
be made public by the Commission. If the Commission determines after such
investigation that there is not reasonable cause to believe that the charge is true,
it shall dismiss the charge and promptly notify the person claiming to be aggrieved
and the respondent of its action. In determining whether reasonable cause exists,
the Commission shall accord substantial weight to final findings and orders made
by State or local authorities in proceedings commenced under State or local law
pursuant to the requirements of subsections (c) and (d). If the Commission

39a
Appendix D
determines after such investigation that there is reasonable cause to believe that
the charge is true, the Commission shall endeavor to eliminate any such alleged
unlawful employment practice by informal methods of conference, conciliation,
and persuasion. Nothing said or done during and as a part of such informal
endeavors may be made public by the Commission, its officers or employees, or
used as evidence in a subsequent proceeding without the written consent of the
persons concerned. Any person who makes public information in violation of this
subsection shall be fined not more than $1,000 or imprisoned for not more than
one year, or both. The Commission shall make its determination on reasonable
cause as promptly as possible and, so far as practicable, not later than one
hundred and twenty days from the filing of the charge or, where applicable under
subsection (c) or (d), from the date upon which the Commission is authorized to
take action with respect to the charge.
(c) State or local enforcement proceedings; notification of State or local authority;
time for filing charges with Commission; commencement of proceedings
In the case of an alleged unlawful employment practice occurring in a State, or
political subdivision of a State, which has a State or local law prohibiting the
unlawful employment practice alleged and establishing or authorizing a State or
local authority to grant or seek relief from such practice or to institute criminal
proceedings with respect thereto upon receiving notice thereof, no charge may be
filed under subsection (a) [1] by the person aggrieved before the expiration of sixty
days after proceedings have been commenced under the State or local law, unless
such proceedings have been earlier terminated, provided that such sixty-day
period shall be extended to one hundred and twenty days during the first year
after the effective date of such State or local law. If any requirement for the
commencement of such proceedings is imposed by a State or local authority other
than a requirement of the filing of a written and signed statement of the facts
upon which the proceeding is based, the proceeding shall be deemed to have been
commenced for the purposes of this subsection at the time such statement is sent
by registered mail to the appropriate State or local authority.
(d) State or local enforcement proceedings; notification of State or local authority;
time for action on charges by Commission
In the case of any charge filed by a member of the Commission alleging an
unlawful employment practice occurring in a State or political subdivision of a
State which has a State or local law prohibiting the practice alleged and
establishing or authorizing a State or local authority to grant or seek relief from
such practice or to institute criminal proceedings with respect thereto upon
receiving notice thereof, the Commission shall, before taking any action with
respect to such charge, notify the appropriate State or local officials and, upon
request, afford them a reasonable time, but not less than sixty days (provided that
such sixty-day period shall be extended to one hundred and twenty days during
the first year after the effective day of such State or local law), unless a shorter

40a
Appendix D
period is requested, to act under such State or local law to remedy the practice
alleged.
(e) Time for filing charges; time for service of notice of charge on respondent; filing
of charge by Commission with State or local agency; seniority system
(1) A charge under this section shall be filed within one hundred and eighty
days after the alleged unlawful employment practice occurred and notice of the
charge (including the date, place and circumstances of the alleged unlawful
employment practice) shall be served upon the person against whom such
charge is made within ten days thereafter, except that in a case of an unlawful
employment practice with respect to which the person aggrieved has initially
instituted proceedings with a State or local agency with authority to grant or
seek relief from such practice or to institute criminal proceedings with respect
thereto upon receiving notice thereof, such charge shall be filed by or on behalf
of the person aggrieved within three hundred days after the alleged unlawful
employment practice occurred, or within thirty days after receiving notice that
the State or local agency has terminated the proceedings under the State or
local law, whichever is earlier, and a copy of such charge shall be filed by the
Commission with the State or local agency.
(2) For purposes of this section, an unlawful employment practice occurs, with
respect to a seniority system that has been adopted for an intentionally
discriminatory purpose in violation of this subchapter (whether or not that
discriminatory purpose is apparent on the face of the seniority provision), when
the seniority system is adopted, when an individual becomes subject to the
seniority system, or when a person aggrieved is injured by the application of
the seniority system or provision of the system.
(3)(A) For purposes of this section, an unlawful employment practice occurs,
with respect to discrimination in compensation in violation of this subchapter,
when a discriminatory compensation decision or other practice is adopted,
when an individual becomes subject to a discriminatory compensation decision
or other practice, or when an individual is affected by application of a
discriminatory compensation decision or other practice, including each time
wages, benefits, or other compensation is paid, resulting in whole or in part
from such a decision or other practice.
(B) In addition to any relief authorized by section 1981a of this title, liability
may accrue and an aggrieved person may obtain relief as provided in
subsection (g)(1), including recovery of back pay for up to two years
preceding the filing of the charge, where the unlawful employment
practices that have occurred during the charge filing period are similar or
related to unlawful employment practices with regard to discrimination in
compensation that occurred outside the time for filing a charge.

41a
Appendix D
(f) Civil action by Commission, Attorney General, or person aggrieved;
preconditions; procedure; appointment of attorney; payment of fees, costs, or
security; intervention; stay of Federal proceedings; action for appropriate
temporary or preliminary relief pending final disposition of charge; jurisdiction
and venue of United States courts; designation of judge to hear and determine
case; assignment of case for hearing; expedition of case; appointment of master
(1) If within thirty days after a charge is filed with the Commission or within
thirty days after expiration of any period of reference under subsection (c) or
(d), the Commission has been unable to secure from the respondent a
conciliation agreement acceptable to the Commission, the Commission may
bring a civil action against any respondent not a government, governmental
agency, or political subdivision named in the charge. In the case of a
respondent which is a government, governmental agency, or political
subdivision, if the Commission has been unable to secure from the respondent
a conciliation agreement acceptable to the Commission, the Commission shall
take no further action and shall refer the case to the Attorney General who
may bring a civil action against such respondent in the appropriate United
States district court. The person or persons aggrieved shall have the right to
intervene in a civil action brought by the Commission or the Attorney General
in a case involving a government, governmental agency, or political subdivision.
If a charge filed with the Commission pursuant to subsection (b), is dismissed
by the Commission, or if within one hundred and eighty days from the filing of
such charge or the expiration of any period of reference under subsection (c) or
(d), whichever is later, the Commission has not filed a civil action under this
section or the Attorney General has not filed a civil action in a case involving
a government, governmental agency, or political subdivision, or the
Commission has not entered into a conciliation agreement to which the person
aggrieved is a party, the Commission, or the Attorney General in a case
involving a government, governmental agency, or political subdivision, shall so
notify the person aggrieved and within ninety days after the giving of such
notice a civil action may be brought against the respondent named in the
charge (A) by the person claiming to be aggrieved or (B) if such charge was filed
by a member of the Commission, by any person whom the charge alleges was
aggrieved by the alleged unlawful employment practice. Upon application by
the complainant and in such circumstances as the court may deem just, the
court may appoint an attorney for such complainant and may authorize the
commencement of the action without the payment of fees, costs, or security.
Upon timely application, the court may, in its discretion, permit the
Commission, or the Attorney General in a case involving a government,
governmental agency, or political subdivision, to intervene in such civil action
upon certification that the case is of general public importance. Upon request,
the court may, in its discretion, stay further proceedings for not more than
sixty days pending the termination of State or local proceedings described in

42a
Appendix D
subsection (c) or (d) of this section or further efforts of the Commission to obtain
voluntary compliance.
(2) Whenever a charge is filed with the Commission and the Commission
concludes on the basis of a preliminary investigation that prompt judicial
action is necessary to carry out the purposes of this Act, the Commission, or
the Attorney General in a case involving a government, governmental agency,
or political subdivision, may bring an action for appropriate temporary or
preliminary relief pending final disposition of such charge. Any temporary
restraining order or other order granting preliminary or temporary relief shall
be issued in accordance with rule 65 of the Federal Rules of Civil Procedure. It
shall be the duty of a court having jurisdiction over proceedings under this
section to assign cases for hearing at the earliest practicable date and to cause
such cases to be in every way expedited.
(3) Each United States district court and each United States court of a place
subject to the jurisdiction of the United States shall have jurisdiction of actions
brought under this subchapter. Such an action may be brought in any judicial
district in the State in which the unlawful employment practice is alleged to
have been committed, in the judicial district in which the employment records
relevant to such practice are maintained and administered, or in the judicial
district in which the aggrieved person would have worked but for the alleged
unlawful employment practice, but if the respondent is not found within any
such district, such an action may be brought within the judicial district in
which the respondent has his principal office. For purposes of sections 1404
and 1406 of title 28, the judicial district in which the respondent has his
principal office shall in all cases be considered a district in which the action
might have been brought.
(4) It shall be the duty of the chief judge of the district (or in his absence, the
acting chief judge) in which the case is pending immediately to designate a
judge in such district to hear and determine the case. In the event that no judge
in the district is available to hear and determine the case, the chief judge of
the district, or the acting chief judge, as the case may be, shall certify this fact
to the chief judge of the circuit (or in his absence, the acting chief judge) who
shall then designate a district or circuit judge of the circuit to hear and
determine the case.
(5) It shall be the duty of the judge designated pursuant to this subsection to
assign the case for hearing at the earliest practicable date and to cause the
case to be in every way expedited. If such judge has not scheduled the case for
trial within one hundred and twenty days after issue has been joined, that
judge may appoint a master pursuant to rule 53 of the Federal Rules of Civil
Procedure.

43a
Appendix D
(g) Injunctions; appropriate affirmative action; equitable relief; accrual of back
pay; reduction of back pay; limitations on judicial orders
(1) If the court finds that the respondent has intentionally engaged in or is
intentionally engaging in an unlawful employment practice charged in the
complaint, the court may enjoin the respondent from engaging in such
unlawful employment practice, and order such affirmative action as may be
appropriate, which may include, but is not limited to, reinstatement or hiring
of employees, with or without back pay (payable by the employer, employment
agency, or labor organization, as the case may be, responsible for the unlawful
employment practice), or any other equitable relief as the court deems
appropriate. Back pay liability shall not accrue from a date more than two
years prior to the filing of a charge with the Commission. Interim earnings or
amounts earnable with reasonable diligence by the person or persons
discriminated against shall operate to reduce the back pay otherwise allowable.
(2)(A) No order of the court shall require the admission or reinstatement of an
individual as a member of a union, or the hiring, reinstatement, or promotion
of an individual as an employee, or the payment to him of any back pay, if such
individual was refused admission, suspended, or expelled, or was refused
employment or advancement or was suspended or discharged for any reason
other than discrimination on account of race, color, religion, sex, or national
origin or in violation of section 2000e—3(a) of this title.
(B) On a claim in which an individual proves a violation under section
2000e-2(m) of this title and a respondent demonstrates that the respondent
would have taken the same action in the absence of the impermissible
motivating factor, the court—
(i) may grant declaratory relief, injunctive relief (except as provided in
clause (ii)), and attorney’s fees and costs demonstrated to be directly
attributable only to the pursuit of a claim under section 2000e-2(m) of
this title; and
(ii) shall not award damages or issue an order requiring any admission,
reinstatement, hiring, promotion, or payment, described in
subparagraph (A).

44a
CONFIDENTIAL
DO NOT SAVE DO NOT SHARE

APPENDIX E — UT Health San Antonio Regulatory Affairs &
Compliance’s Investigation Report on Alleged Unlawful
Retaliation
Date of Report: April 19, 2018
COMPLAINT
Date of Complaint: April 14, 2018
Date of Incident: April 13, 2018
Complainant: Guangcun Huang, M.D., Ph.D.
Department: Molecular Medicine/Institute of Biotechnology
Allegations: Dr. Guangcun Huang, postdoctoral fellow, alleged retaliation by Dr.
Tim Huang, principal investigator, in the form of a threat to terminate his
employment following the filing

of a formal grievance pertaining to a

disagreement over manuscript authorship where he was moved from being listed
as first-first author of a manuscript when it was in draft form to second-first
author at the time of submission.

INVESTIGATION
Relevant Policies, Procedures, Laws, and Regulations:
!. HOP 4.3.9- Academic Training Positions
2. HOP 4.9.5- Grievance Policy and Procedures
3. HOP 2.5.2- Protection from Retaliation for Reporting
Suspected Wrongdoing
4. HOP 2.5.3- Procedures for Handling Allegations of
Retaliatio
5. HOP 7.6.1- Policy Statement Relating to Misconduct or
Research Misconduct

45a
CONFIDENTIAL
DO NOT SAVE DO NOT SHARE

Appendix E

Timeline:
January 2018- Manuscript is submitted for publication.
March 26- Dr. T. Huang sends email to third party acknowledging promise
of first authorship to Dr. G. Huang.
March 27- Dr. G. Huang is first aware he was removed from first-first
author and listed as second-first author when the manuscript is returned
asking for revisions. 1
April 2- laboratory meeting between Ors. Huang and another postdoctoral fellow
where disagreement over authorship is discussed. (G. Huang refers to this event
as initiation of his informal grievance.)
April 6- Dr. T. Huang threatens to terminate Dr. G. Huang in email discussing
sharing of laboratory materials. Also states failure to collaborate with another
researcher in the coming 2-3 weeks will be considered insubordination.
April 8, 1:04 PM- Dr. G. Huang sends email to Dr. T. Huang (copies VP of HR)
titled "Complaint

Concerning

Reprimands

Regarding 17q23 Manuscript

Authorship" citing HOP 4.9.5 and expressing desire to initiate the formal
grievance process over authorship dispute.
April 8, 5:35 PM- Dr. T. Huang responds to formal, grievance complaint
(includes VP of HR and Director of Postdoctoral Affairs).
i It is s possible that had Dr. G. Huang been diligent, he could have become aware of the change in
January, when comments were requested prior to final submission.

46a
CONFIDENTIAL
DO NOT SAVE DO NOT SHARE

Appendix E
April 12, 3:40 PM- Dr. G. Huang emails Dean of SOM (copies the President and
VP of HR) stating he is appealing his written complaint pursuant to HOP 4.9.5.
April 12, 4:57 PM- Dean of SOM acknowledges receipt of grievance complaint.
April 12, 4:58 PM- VPR is in receipt of grievance complaint.
April 12- Dr. T. Huang meets with Director of Postdoctoral Affairs, s told
i

postdocs are not subject to the rules of HR and can be terminated at any ime.
April 13- Dr. T. Huang calls meeting with Dr. G. Huang.
During meeting Dr. T. Huang presents Dr. G. Huang with two options: #1 sign
the consent to publish research where he is listed as second-first author or #2 be
terminated. Dr. T. Huang cites concern that Dr. G. Huang's refusal to sgn the

I

consent will jeopardize the publication of the research in its entirety. Dr. G.
Huang states he is not in a position to respond due to an on- going investigation.
Dr. T. Huang states he is unaware of any investigation and repeats the options
he has presented to Dr. G, Huang. Dr. T. Huang further states Dr. G. Huang
will be terminated regardless of signing the consent. At the conclusion of the
meeting, Dr. T. Huang dismisses Dr. G. Huang instructing him to return to the
laboratory but not to work on anything.
i

April 17- Drs. Huang are interviewed. Dr. G. Huang continues to repoit to the
laboratory but is not working on anything as instructed. Dr. T. Huang confirms
the events and discussion that took place on April 13th. He remains insist ant that
Dr. G. Huang not work on anything in the laboratory. He also states that Dr. G.

